CREDIT CARD ACCOUNT
AGREEMENT AND DISCLOSURE
THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS, MORE REWARDS VISA AND MORE REWARDS
SECURED VISA AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF
YOUR MORE REWARDS VISA AND MORE REWARDS SECURED VISA CREDIT CARDS, AND/OR
ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT
CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges

8.9%-16.9%

Annual Percentage Rate
(APR) For Purchases

More Rewards VISA:

Annual Percentage Rate
(APR) For Balance Transfers

More Rewards VISA: 8.9%-16.9%

Annual Percentage Rate
(APR) For Cash Advances

More Rewards VISA: 8.9%-16.9%

Penalty APR And When it
Applies

17.90%

More Rewards Secured VISA:

10.9%

More Rewards Secured VISA: 10.9%
More Rewards Secured VISA: 10.9%

This APR may be applied if:
1) You make a late payment.
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason,
the Penalty APR applied to transactions that occur after the increase may be applied
indefinitely. For transactions that occurred prior to the effective date of the increase, the
increase will apply indefinitely unless 6 consecutive payments are received on or before
the due date during the six-month period following such increase.
Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each month
within 26 days of Your statement closing date. We will begin charging interest on cash advances
and balance transfers on the transaction date.

Minimum Interest Charge

If You are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http:www.consumerfinance.gov/learnmore.

Fees
Transaction Fees



Foreign Transaction
Cash Advance

1.00% of each transaction in U.S. dollars
2.00% of each advance ($5.00 minimum - $50.00 maximum)

Penalty Fees




Returned Payment
Over-the-Credit Limit
Late Payment

Up to $23.00
Up to $29.00
Up to $29.00 after 4 days

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

Copyright Oak Tree Business Systems, Inc., 2015. All Rights Reserved.

Page 1 of 4

OTBS 016CCY (4/15)

Additional Provisions of Agreement
DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean Vons Employees Federal Credit Union and Its Divisions. The words "You"
and "Your" mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any
More Rewards VISA or More Rewards Secured VISA Credit Card issued to You by Us and any duplicates or renewals. The word "Account" means the More Rewards
VISA or More Rewards Secured VISA Credit Card Account established for You under this Agreement. "Convenience Check" means the special Account access devices
that We may provide for Your use from time to time. If this is a joint Account, read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and conditions constitute Our Agreement with You. You may request advances on Your Account through a
variety of means which could include (but may not be limited to) telephonic requests, Convenience Checks, Credit Cards and the like. Regardless of the means by
which any advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent
or implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.

Daily
Periodic Rate

ANNUAL
PERCENTAGE
RATE

More Rewards VISA

___________%

___________%

More Rewards Secured VISA

___________%

___________%

USE OF YOUR CARD. You may use Your Card to buy goods and services in
any place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including,
but not limited to, advances made for the purpose of gambling and/or
wagering where such practices are in violation of applicable state and/or
federal law.

You may, by separate agreement, authorize Us to charge Your payment directly
to Your share or share draft account.

Account
Feature Categories

SECURITY. Collateral (other than household goods or any dwelling) given as
security under any other loan You may have with Us will secure all amounts You
owe Us now and in the future if that status is reflected in the "Truth-in-Lending
Disclosure" in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on
Your shares with Us (except for IRA and Keogh accounts) and any
dividends due or to become due to You from Us to the extent You owe
on any unpaid Credit Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a More Rewards
Secured VISA Credit Card, You agree to give Us a specific pledge of shares
which will equal Your Credit Limit. In the event that You default on Your Account,
We may apply these shares toward the repayment of any amount owed on Your
More Rewards Secured VISA Credit Card. You may cancel Your More Rewards
Secured VISA Credit Card at any time by paying any amounts owed on such
Account. To be certain that Your entire balance and all advances are paid, any
shares pledged may not be available to You for 30 days after You have
cancelled and any outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
which You are approved. Unless You are in default, any Credit Limits
established for You will generally be self-replenishing as You make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You
will pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit
available during any time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You
understand that any such Account access device(s) will be mailed only to the
primary Borrower at the address that We have on file for You. We may refuse to
follow any instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the
right to repay at any time without penalty. You also understand that You will only
be charged periodic Finance Charges to the date You repay Your entire
balance. You may make larger payments without penalty. Any partial payment or
prepayment will not delay Your next scheduled payment. All payments to Us
must be in lawful money of the United States. Except as required by law, We
may apply payments in an order of Our choosing.
More Rewards VISA and More Rewards Secured VISA Payments will be an
amount equal to 2.00% of Your new unpaid More Rewards VISA or More
Rewards Secured VISA balance at the end of each billing cycle, subject to the
lesser of $15.00 or Your balance, plus any portion of the Minimum Payments
shown on prior statement(s) which remains unpaid, plus any amount that
exceeds Your approved Credit Limit.
Copyright Oak Tree Business Systems, Inc., 2015. All Rights Reserved.

FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). To get the
average daily balance, We take the beginning balance of Your Account each day,
add any new purchases, cash advances, insurance premiums, debit adjustments
or other charges and subtract any payments, credits and unpaid Finance Charges.
This gives Us the daily balance. Then, We add up all the daily balances for the
billing cycle and divide them by the number of days in the billing cycle. The Finance
Charge for a billing cycle is computed by multiplying the average daily balance
subject to a Finance Charge by the Daily Periodic Rate times the number of days in
the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 26 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from
the later of the date they are posted to Your Account or from the first day of the
billing cycle in which such transaction is posted to Your Account.
The minimum FINANCE CHARGE that You will be required to pay in any billing
cycle that a Finance Charge is due is $0.50.
PENALTY RATE. If Your Account is ever more than 60 days past due, subject to
applicable law, the Daily Periodic Rate applicable to Your entire balance of
transactions existing at that time and in the future will increase to 0.049041%
(corresponding ANNUAL PERCENTAGE RATE 17.90%). During the six month
period following such an increase, if We receive the first six consecutive
required minimum periodic payments when due, the rate applicable to the
balance of transactions that occurred prior to the increase will be returned to the
standard rate that would have otherwise been in effect.
LATE CHARGE. If Your payment is 5 or more days late, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $29.00.
OVER-THE-CREDIT LIMIT FEE. If You have affirmatively consented to allow Us to
pay a transaction that would exceed Your Credit Limit and We have acknowledged
Your consent as required by applicable law, subject to any limitations imposed by
applicable law, You will be charged a fee for each billing cycle during which You
exceed Your Credit Limit. The fee will be an amount equal to the lesser of: (a)
$25.00 (this amount will be $29.00 if you have exceeded Your Credit Limit as
described above within 6 months of previously exceeding Your Credit Limit); or (b)
the amount by which You have exceeded Your Credit Limit.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries
and foreign currencies, the exchange rate between the transaction
currency and the billing currency (U.S. dollars) will be: (a) a rate selected
by VISA from the range of rates available in wholesale currency markets
for the applicable central processing date, which rate may vary from the
rate VISA itself receives; or (b) the government-mandated rate in effect for
the applicable central processing date. In each instance, You will be
charged a fee in an amount equal to 1.00% of the settlement amount.
OTHER FEES AND CHARGES. You will be charged the following fees
associated with the use of Your Card: (a) the lesser of $23.00 for any check (or
other negotiable instrument used for payment) which is returned unpaid, or the

Page 2 of 4

OTBS 016CCY (4/15)

Additional Provisions of Agreement
required minimum payment amount for the returned payment; (b) a cash
advance fee FINANCE CHARGE equal to the greater of 2.00% of each advance
or $5.00, subject to a maximum of $50.00; and (c) $6.00 for each replacement
Card You request.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $100.00 (or
in such increments as We may from time to time determine) to Your share draft
account by an advance on Your Account, subject to this provision, to clear any
Overdraft on Your share draft account. Whether or not such transfers occur will
be controlled by this Agreement. In any event, You hold Us harmless for any
and all liability which might otherwise arise if the transfer does not occur.
Overdraft Protection automatically ceases if this Agreement is ever cancelled or
terminated or Your Account is in default.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which
there is a debit or credit balance or when a Finance Charge is imposed. We
need not send You a statement if We feel Your Account is uncollectible or if We
have started collection proceedings against You because You defaulted. EACH
STATEMENT IS DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT
UNLESS YOU ESTABLISH A BILLING ERROR PURSUANT TO THE FEDERAL
TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are
under no obligation to honor Your Convenience Checks if: (1) by paying a
Convenience Check, You would exceed Your Credit Limit; (2) Your Cards or
Convenience Checks have been reported lost or stolen; (3) Your Account has
been cancelled or has expired. If a postdated Convenience Check is paid and,
as a result, any other Convenience Check is returned unpaid, We are not
responsible for any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any of
Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon will
be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable,
without prior notice or demand.

UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or
other financial information related to You, at Our request. You also agree that
We may, from time to time, as We deem necessary, make inquiries pertaining
to Your employment, credit standing and financial responsibility in
accordance with applicable laws and regulations. You further agree that We
may give information about the status and payment history of Your Account to
consumer credit reporting agencies, a prospective employer or insurer, or a
state or federal licensing agency having any apparent legitimate business
need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in
default. You will, in any case, remain liable to pay any unpaid balances
according to the terms of Your Account.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at
any time without notice. You agree to surrender Your Card and to discontinue its
use immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue a
Personal Identification Number (PIN) for use with participating Automated Teller
Machines (ATMs). This PIN is confidential and should not be disclosed to
anyone. You may use Your PIN to access Your Account and all sums advanced
will be added to Your Account balance. In the event a use of Your PIN
constitutes an electronic fund transfer, the terms and conditions of Your
electronic fund transfer agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your
Card. You will not be liable for the unauthorized use that occurs after You notify
Us of the loss, theft, or possible unauthorized use by calling Us during regular
business hours at (800) 488-8328, or after hours, on weekends or holidays at
(800) 325-3678, or by writing to Us at the address shown in this Agreement. In
any case, Your liability will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
TRANSACTION SLIPS. Your monthly statement will identify the merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.

COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all court
costs, private process server fees, investigation fees or other costs incurred in
collection and reasonable attorneys’ fees incurred in the course of collecting any
amounts owed under this Agreement or in the recovery of any Collateral.

LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
Cards or Convenience Checks, You will immediately call Us during regular
business hours at (800) 488-8328, or after hours, on weekends or holidays at
(800) 325-3678, or by writing to Us at the address shown in this Agreement.

ENFORCEMENT. We do not lose Our rights under this or any related
agreement if We delay enforcing them. We can accept late payments, partial
payments or any other payments, even if they are marked "paid in full" without
losing any of Our rights under this Agreement. If any provision of this or any
related agreement is determined to be unenforceable or invalid, all other
provisions remain in full force and effect.

CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold
and apply this credit against future purchases and cash advances, or if it is
$1.00 or more refund it on Your written request automatically deposit it to Your
share account after 6 months.

NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You
move or otherwise change Your address or telephone number.

GOVERNING LAW. This Agreement is controlled and governed by the laws of
the State of California except to the extent that such laws are inconsistent with
controlling federal law.

CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal
Truth-In-Lending Act. To the extent permitted by law, the right to change the
terms of this Agreement includes, but is not limited to, the right to change the
periodic rate applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this Agreement
or at a later date becomes an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
Copyright Oak Tree Business Systems, Inc., 2015. All Rights Reserved.

Page 3 of 4

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address
shown in this Agreement. In Your letter, give us the following information:





Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.
OTBS 016CCY (4/15)

Additional Provisions of Agreement
We may then report You as delinquent if You do not pay the amount We
think You owe.

You must contact Us:




Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You
do We are not required to investigate any potential errors and You may have to
pay the amount in question.
What Will Happen After We Receive Your Letter

If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom we
reported You as delinquent, and We must let those organizations know when
the matter has been settled between Us. If We do not follow all of the rules
above, You do not have to pay the first $50.00 of the amount You question
even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases

When We receive Your letter, We must do two things:
1)
2)

Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

1)

While We investigate whether or not there has been an error:






We cannot try to collect the amount in question, or report You as
delinquent on that amount.
The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.



If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will send
You a statement of the amount You owe and the date payment is due.

Copyright Oak Tree Business Systems, Inc., 2015. All Rights Reserved.

2)

3)

The purchase must have been made in Your home state or within 100
miles of Your current mailing address, and the purchase price must have
been more than $50.00. (Note: Neither of these are necessary if Your
purchase was based on an advertisement We mailed to You, or if We own
the company that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses Your
Credit Card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the
purchase, contact Us in writing at Our address shown in this Agreement.

After We finish Our investigation, one of two things will happen:



If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with
the merchant, You may have the right not to pay the remaining amount due on
the purchase. To use this right, all of the following must be true:

Page 4 of 4

While We investigate, the same rules apply to the disputed amount as
discussed above. After We finish Our investigation, We will tell You Our
decision. At that point, if We think You owe an amount and You do not pay, We
may report You as delinquent.

OTBS 016CCY (4/15)

